      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                       Washington, D.C. 20201




June 16, 2010

TO:             Marilyn Tavenner
                Acting Administrator and Chief Operating Officer
                Centers for Medicare & Medicaid Services


FROM:           /George M. Reeb/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of Jurisdiction C Medicare Payments for Selected Durable Medical
                Equipment Claims With the KX Modifier for Calendar Year 2007
                (A-04-09-04039)


Attached, for your information, is an advance copy of our final report on Jurisdiction C Medicare
payments for selected durable medical equipment claims with the KX modifier for calendar year
2007. We will issue this report to CIGNA Government Services (CGS), the durable medical
equipment Medicare administrative contractor for Jurisdiction C, within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7800
or through email at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-09-04039.



Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Office of Audit Services, Region IV
                                                                         61 Forsyth Street, SW, Suite 3T41
                                                                         Atlanta, GA 30303

June 22, 2010

Report Number: A-04-09-04039

Ms. Jean Rush
President, CIGNA Government Services
2 Vantage Way
Nashville, TN 37228

Dear Ms. Rush:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Jurisdiction C Medicare Payments for Selected
Durable Medical Equipment Claims With the KX Modifier for Calendar Year 2007. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(404) 562-7800, or contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24, or
through email at Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-09-04039 in
all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jean Rush


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF JURISDICTION C MEDICARE
 PAYMENTS FOR SELECTED DURABLE
 MEDICAL EQUIPMENT CLAIMS WITH
        THE KX MODIFIER
     FOR CALENDAR YEAR 2007




                         Daniel R. Levinson
                          Inspector General

                             June 2010
                           A-04-09-04039
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1) and 1861(n) of the Social Security Act (the Act), Medicare
Part B provides for the coverage of durable medical equipment, prosthetics, orthotics, and
supplies (DMEPOS). As a result of the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003, the Centers for Medicare & Medicaid Services (CMS) contracted
with four durable medical equipment Medicare administrative contractors (DME MAC) to
process and pay Medicare Part B claims for DMEPOS. These DME MACs replaced the Durable
Medical Equipment Regional Carriers (DMERC). Also, CMS contracts with Palmetto
Government Benefits Administrators, LLC (Palmetto GBA), to serve as the National Supplier
Clearinghouse. The National Supplier Clearinghouse is responsible for enrolling and reenrolling
DMEPOS suppliers.

Under the statutory and policy framework of the Act, the Medicare National Coverage
Determinations Manual defines DME as equipment that can withstand repeated use, serves a
medical purpose, is generally not useful to a person in the absence of illness or injury, and is
appropriate for use in a patient’s home. For certain DMEPOS, suppliers must use the KX
modifier on filed claims. The KX modifier indicates that the claim meets the Medicare coverage
criteria and the supplier has the required documentation on file. While suppliers must have a
written physician’s order and proof of delivery for all DMEPOS, suppliers must have additional
documentation on file for items requiring the KX modifier. For example, respiratory assist
devices also require documentation that a sleep study was performed before the date on the
physician’s order.

On January 16, 2007, CMS awarded the DME MAC contract for Jurisdiction C to CIGNA
Government Services (CGS). CGS assumed full responsibility for administering the DME MAC
work and began processing DMEPOS claims for Jurisdiction C as of June 1, 2007. Palmetto
GBA was the Region C DMERC and processed the DMEPOS claims through May 31, 2007.
(CMS refers to the DMERCs’ coverage areas as “regions” and the DME MACs’ coverage areas
as “jurisdictions.”)

Palmetto GBA and CGS processed approximately $4 billion in Medicare DMEPOS claims with
calendar year 2007 dates of service. This audit focused on $257,266,589 of Medicare paid
claims processed by either Palmetto GBA or CGS for therapeutic shoes for diabetics, continuous
positive airway pressure systems, respiratory assist devices, and pressure reducing support
surfaces (groups 1 and 2) that included the KX modifier.

OBJECTIVE

Our objective was to determine whether the KX modifier was effective in ensuring that suppliers
of DMEPOS who submitted claims to Palmetto GBA or CGS had the required supporting
documentation on file.




                                               i
SUMMARY OF FINDINGS

The KX modifier was not effective in ensuring that suppliers of DMEPOS who submitted claims
to either Palmetto GBA or CGS had the required supporting documentation on file. Of the 100
sampled items, suppliers had the required documentation on file for 45 items. Suppliers did not
have the required documentation on file for the remaining 55 items. As a result, Palmetto GBA
and CGS made unallowable payments totaling $4,544 for 55 of the 100 sampled items. Based on
our sample, we estimated that Palmetto GBA and CGS paid approximately $137 million to
suppliers who did not have the required documentation on file to support the DMEPOS items
with 2007 dates of service.

The types of missing documentation included:

   •   proof of delivery (14 of 100 items),

   •   physician’s order (40 of 100 items),

   •   use or compliant use followup documentation (12 of 76 applicable items), and

   •   physician’s statement (8 of 24 applicable items).

For 17 of the 55 items, suppliers were missing multiple required documents.

These errors occurred because Palmetto GBA’s and CGS’s electronic edits in place were not
effective for determining whether suppliers had the required documentation on file when they
used the KX modifier on claims. The edits could only determine whether the required KX
modifier was on the claim. In addition, CGS added the KX modifier to claims at the request of
suppliers who said they had erroneously failed to add it to their claims.

RECOMMENDATIONS

We recommend that CGS, as the current DME MAC:

   •   recover the $4,544 in payments for specific DMEPOS items claimed for which the
       suppliers did not have the required documentation,

   •   review other payments for DMEPOS related to our unallowable sample items and recover
       any additional unallowable payments,

   •   notify CMS of the 14 suppliers who did not meet the supplier standard for maintaining
       proof of delivery so CMS can take appropriate action, and

   •   develop a corrective action plan to improve the effectiveness of the KX modifier and
       potentially save an estimated $137 million.



                                               ii
AUDITEE COMMENTS

In written comments to the draft report, CGS acknowledged the unallowable payments and listed
actions it intends to take in response to our recommendations. CGS’s comments are included in
their entirety as Appendix D.




                                             iii
                                                  TABLE OF CONTENTS
                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Contracts for Processing Medicare Durable Medical Equipment,
               Prosthetics, Orthotics, and Supplies Claims ...................................................... 1
              KX Modifier Used for Durable Medical Equipment, Prosthetics,
               Orthotics, and Supplies Claims Processing ....................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 3
               Objective ............................................................................................................... 3
               Scope ..................................................................................................................... 3
               Methodology ......................................................................................................... 4

FINDINGS AND RECOMMENDATIONS ............................................................................. 5

          MISSING REQUIRED DOCUMENTATION ................................................................. 5
               Proof of Delivery .................................................................................................. 5
               Physician’s Order .................................................................................................. 6
               Use or Compliant Use Followup Documentation ................................................. 6
               Physician’s Statement ........................................................................................... 7

          KX MODIFIER SYSTEM EDITS .................................................................................. 7

          EFFECT OF UNALLOWABLE PAYMENTS ................................................................ 7

          RECOMMENDATIONS .................................................................................................. 8

          AUDITEE COMMENTS.................................................................................................. 8

APPENDIXES

          A – SAMPLING METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES

          C – ERROR DETAILS

          D – AUDITEE COMMENTS




                                                                     iv
                                                 INTRODUCTION


BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Pursuant to sections 1832(a)(1) and 1861(n) of the Act,
Medicare Part B provides for the coverage of durable medical equipment, prosthetics, orthotics,
and supplies (DMEPOS).

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(DME MAC) to process and pay Medicare Part B claims for DMEPOS. These DME MACs
replaced the Durable Medical Equipment Regional Carriers (DMERC). Also, CMS contracts
with Palmetto Government Benefits Administrators, LLC (Palmetto GBA), to serve as the
National Supplier Clearinghouse. The National Supplier Clearinghouse is responsible for
enrolling and reenrolling DMEPOS suppliers. CMS will revoke a supplier’s billing privileges if
it finds that the supplier does not meet the supplier standards (42 CFR § 424.57(c) and (d)). 1

Contracts for Processing Medicare Durable Medical Equipment, Prosthetics, Orthotics,
and Supplies Claims

On January 16, 2007, CMS awarded the DME MAC contract for Jurisdiction C to CIGNA
Government Services, LLC (CGS). CGS assumed full responsibility for administering the
DME MAC work and began processing DMEPOS claims for Jurisdiction C as of June 1, 2007.
CGS processes DMEPOS claims for Alabama, Arkansas, Colorado, Florida, Georgia, Louisiana,
Mississippi, New Mexico, North Carolina, Oklahoma, Puerto Rico, South Carolina, Tennessee,
Texas, U.S. Virgin Islands, Virginia, and West Virginia.

Palmetto GBA was the Region C DMERC and processed the DMEPOS claims through May 31,
2007. 2 Palmetto GBA transferred its DMEPOS files to CGS after CMS awarded CGS the
DME MAC contract for Jurisdiction C.




1
    Federal requirements referenced in this document are the ones that were in effect during our audit period.
2
 CMS refers to the DMERCs’ coverage areas as “regions” and the DME MACs’ coverage areas as “jurisdictions.”
The Region C DMERC’s coverage area also included Kentucky but did not include Virginia or West Virginia.


                                                            1
KX Modifier Used for Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
Claims Processing

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices including DMEPOS and generally
outline the conditions under which a service or device is considered covered. The Medicare
National Coverage Determinations Manual (Pub. No. 100-03, chapter 1, section 280.1) defines
DMEPOS as equipment that can withstand repeated use, serves a medical purpose, is generally
not useful to a person in the absence of illness or injury, and is appropriate for use in a patient’s
home.

Contractors develop supplier manuals, Local Coverage Determinations (LCD), and Policy
Articles for covered DMEPOS items. These materials specify under what clinical circumstances
the DMEPOS item is considered to be reasonable and necessary. For covered DMEPOS items
(including therapeutic shoes for diabetics (therapeutic shoes), continuous positive airway
pressure systems (CPAP), respiratory assist devices (RAD), and pressure reducing support
surfaces (groups 1 and 2) (PRSS)), 3 the LCDs require a KX modifier be added to the claims
before they can be paid. By adding the KX modifier, the supplier attests that the claim meets the
Medicare coverage criteria and that the specific required documentation, which varies based on
the DMEPOS item, is on file at the supplier before submitting the claim to the DME MAC. This
documentation requirement includes the written physician’s order and proof of delivery that are
required for all DMEPOS, as well as additional documentation such as a sleep study for a RAD
claim.

Through supplier manuals, LCDs, and Internet postings, the contractors instructed the suppliers
to use the KX modifier only if the suppliers have the required documentation on file. However,
if the KX modifier is not used with claims for DMEPOS that require it, the claims will be denied.

This audit focused on claims paid by Palmetto GBA and CGS for therapeutic shoes, CPAPs,
RADs, and PRSS.




3
 These DMEPOS are included in the Level II Healthcare Common Procedure Coding System, which is a
comprehensive, standardized system that classifies similar medical products into categories for efficient claims
processing. It is the standardized coding system used for describing, identifying, and preparing claims for
DMEPOS.

                                                          2
      Documentation Requirements for Selected Durable Medical Equipment, Prosthetics,
                      Orthotics, and Supplies Requiring the KX Modifier
     Documentation
    Required to be on                                Therapeutic
     File at Supplier          Required by              Shoes      CPAP     RAD PRSS

                          -Program Integrity
Physician’s Order           Manual (PIM),                          X               X           X            X
(written, signed, and       Pub. No. 100-08, chapter 5
dated)                    -LCDs
                          -42 CFR § 424.57(c)(12)
                                                                   X               X           X            X
Proof of Delivery         -PIM, chapter 4
Statement of
Treating/ Certifying      -The Act, § 1861(s)(12)
                                                                   X                                        X
Physician Before           (A-C)
Billing                   -LCDs and Policy Articles
Polysomnography
(sleep study) Before      - NCD                                                    X           X
Physician’s Order         - LCDs
Use or Compliant
Use Followup
Statement of                                                                       X           X
Physician and/or
Beneficiary               - LCDs

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the KX modifier was effective in ensuring that suppliers
of DMEPOS who submitted claims to Palmetto GBA or CGS had the required supporting
documentation on file.

Scope

Of the approximately $4 billion in Medicare DMEPOS claims in Jurisdiction C with calendar
year 2007 dates of service, Palmetto GBA paid suppliers $1.2 billion (31 percent) and CGS paid
$2.8 billion (69 percent). This audit focused on $257,266,589 of these Medicare paid claims for
therapeutic shoes, CPAPs, RADs, and PRSS that included the KX modifier. Palmetto GBA, the
Region C DMERC, processed the DMEPOS claims through May 31, 2007. However, in
connection with the transition to DME MACs, Palmetto GBA transferred its workload to CGS,
the current Jurisdiction C DME MAC, which processed DMEPOS claims starting with June 1,
2007 dates of services. 4

4
  Kentucky was part of the Region C DMERC’s coverage area. However, CMS made certain coverage area
realignments during the transition to DME MACs, including making Kentucky part of DME MAC Jurisdiction B,
which began processing claims on July 1, 2006.

                                                     3
Since Palmetto GBA transferred all of its claims payment files, we were able to obtain its claims
payment file information from CGS; however, we were unable to determine the supplier training
and education that Palmetto GBA provided.

We limited our review of internal controls to gaining an understanding of the contractors’
processing of selected DMEPOS claims that were submitted with the KX modifier. We did not
determine whether the sample items met other Medicare coverage criteria, such as medical
necessity.

From June 2009 through December 2009, we conducted fieldwork at CGS offices in Nashville,
Tennessee, and at suppliers’ offices in 13 States.

Methodology

To accomplish our audit objective, we:

       •   reviewed applicable Federal laws, regulations, and guidance;

       •   interviewed CGS officials concerning the manual and electronic claims processing
           procedures for claims for therapeutic shoes, CPAPs, RADs, and PRSS with the KX
           modifier and CGS’s and Palmetto GBA’s edits in the claims processing system to ensure
           that claims were adjudicated;

       •   interviewed CGS officials concerning the education and training specific to the KX
           modifier that CGS provided to the suppliers of therapeutic shoes, CPAPs, RADs, and
           PRSS;

       •   selected a simple random sample of 100 items from four categories of DMEPOS
           (Appendix A);

       •   made unannounced visits to the 97 suppliers 5 to obtain their documentation supporting
           the use of the KX modifier;

       •   reviewed the suppliers’ documentation for the sample items to determine whether it met
           the documentation requirements for using the KX modifier; and

       •   requested CGS’s medical review staff review the documentation provided by the
           suppliers for those sample items that we determined did not meet the documentation
           requirements for use of the KX modifier.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

5
    Three of the ninety-seven suppliers had two items in the sample.


                                                           4
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

The KX modifier was not effective in ensuring that suppliers of DMEPOS who submitted claims
to either Palmetto GBA or CGS had the required supporting documentation on file. Of the 100
sampled items, suppliers had the required documentation on file for 45 items. 6 Suppliers did not
have the required documentation on file for the remaining 55 items. As a result, Palmetto GBA
and CGS made unallowable payments totaling $4,544 for 55 of the 100 sampled items. Based on
our sample, we estimated that Palmetto GBA and CGS paid approximately $137 million to
suppliers who did not have the required documentation on file to support the DMEPOS items
with 2007 dates of service.

The types of missing documentation included:

      •    proof of delivery (14 of 100 items),

      •    physician’s order (40 of 100 items),

      •    use or compliant use followup documentation (12 of 76 applicable items), and

      •    physician’s statement (8 of 24 applicable items). 7

Additional details on the results of the sampled items are provided in Appendixes B and C.

These errors occurred because Palmetto GBA’s and CGS’s electronic edits in place were not
effective for determining whether suppliers had the required documentation on file when they
used the KX modifier on claims. The edits could only determine whether the required KX
modifier was on the claim. In addition, CGS added the KX modifier to claims at the request of
suppliers who said they had erroneously failed to add it to their claims.

MISSING REQUIRED DOCUMENTATION

Proof of Delivery

Pursuant to the supplier standard (42 CFR § 424.57(c)(12)), the supplier “[m]ust be responsible
for the delivery of Medicare covered items to beneficiaries and maintain proof of delivery.”
Also, the PIM, chapter 4, section 4.26, requires suppliers to maintain proof of delivery
documentation in their files for 7 years. Section 4.26.1 outlines proof of delivery requirements
for different methods of delivery. Section 4.26 also states that, for “any services, which do not


6
    One of these forty-five sampled items was from a supplier who was no longer active.
7
    For 17 of the 55 sampled items, suppliers were missing multiple required documents.


                                                          5
have proof of delivery from the supplier, such claimed items and services shall be denied and
overpayments recovered.”

For 14 of the 100 items, suppliers did not have proof of delivery documentation on file to support
billing for the DMEPOS. In all 14 instances, at least one of the following deficiencies occurred:
the delivery documentation was missing, the delivery documentation was not signed and dated
by the beneficiary or his or her designee, or the documentation for shipped items such as tracking
numbers or the supplier’s invoice was missing.

Physician’s Order

The PIM, chapter 5, sections 5.2.1 and 5.2.2, state that all DMEPOS suppliers are required to
keep on file a physician’s order. The treating physician must sign and date the order. Section
5.2.3 states that if the supplier does not have a written order signed and dated by the treating
physician before billing Medicare, the item will be denied.

For 40 of the 100 items, suppliers did not have a physician’s order on file to support billing for
the DMEPOS. In all 40 instances, at least one of the following deficiencies occurred: the order
was missing, the order was not signed and dated by the physician, or the DMEPOS item was not
listed on the order.

Use or Compliant Use Followup Documentation

The LCDs for the CPAP effective March 1, 2006, June 1, 2007, and July 1, 2007, and the LCDs
for the RAD effective April 1, 2006, June 1, 2007, and July 1, 2007, state that, for an E0601
(CPAP) and an E0470 (RAD) to be covered beyond the first 3 months of therapy, the supplier
must ascertain no sooner than the 61st day after initiating therapy that the CPAP is being used
and that the RAD is being compliantly used. For the CPAP, either the beneficiary or the treating
physician must confirm that the beneficiary is continuing to use the CPAP, and the supplier must
maintain documentation that the requirement has been met. For the RAD, the supplier must
obtain signed statements from both the treating physician and the beneficiary stating that the
RAD is being compliantly used. 8 The LCDs state that continued coverage of the device will be
denied if the requirements are not met.

For 12 of the 76 applicable items in our sample, suppliers did not have the use or compliant use
followup documentation on file to support billing for the DMEPOS. In all 12 instances, at least
one of the following deficiencies occurred: the use or compliant use followup documentation
was missing, the use or compliant use followup was done within 60 days after initiating therapy,
the statement(s) required to be completed by the treating physician and/or the beneficiary were
missing for the RAD, or the item was billed after the first 3 months but before the supplier
obtained use or compliant use followup documentation.




8
    The LCD defines “compliantly used” for a RAD as an average usage of 4 hours out of 24 hours.


                                                          6
Physician’s Statement

Pursuant to the Act, § 1861(s)(12)(A), the physician must certify that the patient meets specific
criteria for therapeutic shoes. The LCDs and Policy Articles for therapeutic shoes and PRSS,
groups 1 and 2, state that DMEPOS items are covered if the supplier obtains a signed and dated
statement from the certifying or treating physician 9 saying the patient meets specific criteria. 10
The physician’s statement must be signed and dated some time during the year before the date of
service for therapeutic shoes, and the Policy Articles state that the items will be denied if the
requirements are not met.

For 8 of the 24 applicable items in our sample requiring a physician’s statement, suppliers did
not have the physicians’ statements on file to support billing for the DMEPOS. In all eight
instances, at least one of the following deficiencies occurred: the physician’s statement of
medical need was missing, was incomplete, or was not timely.

KX MODIFIER SYSTEM EDITS

The LCDs require DMEPOS suppliers to include the KX modifier on claims submitted for
therapeutic shoes, CPAPs, RADs, and PRSS when the “specific required documentation is on
file.” Use of the KX modifier constitutes a statement that the suppliers have the documentation
on file that the policy requires for the particular item or service.

Palmetto GBA and CGS established electronic edits to evaluate the claims submitted by the
DMEPOS suppliers. However, the edits were not effective for determining whether suppliers
had the required documentation on file when they used the KX modifier on claims. The edits
could only determine whether the required KX modifier was on the claim.

In addition, CGS considered suppliers’ omissions of the KX modifier to be a “clerical error.”
When suppliers contacted CGS about claims denied because of a missing KX modifier, CGS
added the KX modifier to the claims at the suppliers’ requests.

EFFECT OF UNALLOWABLE PAYMENTS

For 55 of the 100 items in our sample, suppliers who did not have the required documentation on
file to support their use of the KX modifier received $4,544 in payments. Based on our sample,
we estimated that Palmetto GBA and CGS paid approximately $137 million in unallowable
Medicare payments to DMEPOS suppliers with 2007 dates of service.



9
 The certifying or treating physician is the physician who treats the underlying condition that requires the use of the
DMEPOS.
10
  For therapeutic shoes, LCDs were effective March 1, 2006, June 1, 2007, and July 1, 2007, and Policy Articles
were effective June 1 and July 1, 2007. For PRSS (group 1 only), an LCD was effective January 1, 2007, and a
different LCD and a Policy Article were effective June 1, 2007. For PRSS (group 2 only), LCDs were effective
March 1, 2006, June 1, 2007, and July 1, 2007, and Policy Articles were effective March 1, 2006, and June 1, 2007.


                                                           7
RECOMMENDATIONS

We recommend that CGS, as the current DME MAC:

   •   recover the $4,544 in payments for specific DMEPOS items claimed for which the
       suppliers did not have the required documentation,

   •   review other payments for DMEPOS related to our unallowable sample items and recover
       any additional unallowable payments,

   •   notify CMS of the 14 suppliers who did not meet the supplier standard for maintaining
       proof of delivery so CMS can take appropriate action, and

   •   develop a corrective action plan to improve the effectiveness of the KX modifier and
       potentially save an estimated $137 million.

AUDITEE COMMENTS

In written comments to the draft report, CGS acknowledged the unallowable payments and
described actions it intends to take in response to our recommendations.

CGS said that it would develop a proposal, which includes additional targeted provider education
and a verification process for supplier documentation on a prepay basis, to improve the
effectiveness of the KX modifier for submission to CMS by June 20, 2010.

In addition, CGS said that it has partnered with the other DME MACs to strengthen controls and
increase the effectiveness of the KX modifier. CGS said that the four DME MAC directors
made revisions to LCDs, effective December 1, 2009, which require suppliers to file
redetermination requests for changes to the KX and other modifiers and to deny claims without
the KX modifier. CGS said that these policy changes increase the effectiveness of the KX
modifier by requiring the supplier to file an appeal to either add or change the KX modifier and
to provide the documentation required to support the use of the KX modifier.

CGS’s comments are included in their entirety as Appendix D.




                                               8
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of durable medical equipment, prosthetics, orthotics, and supplies
(DMEPOS) items for the year ending December 31, 2007, that DMEPOS suppliers claimed for
payment using the KX modifier under Medicare Part B.

SAMPLE FRAME

The sampling frame consisted of 3,024,176 line items totaling $257,266,589 for the year ending
December 31, 2007. These items were for specific categories of DMEPOS (therapeutic shoes for
diabetics, continuous positive airway pressure systems, respiratory assist devices, and pressure
reducing support surfaces (groups 1 and 2)) claimed for payment using the KX modifier under
Medicare Part B.

SAMPLE UNIT

The sample unit was a line item.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 line items.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of the Inspector General (OIG), Office of
Audit Services (OAS), statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of potentially unallowable
payments.
               APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                 SAMPLE RESULTS

                                                         Number of          Value of
 Frame                      Sample          Value of     Unallowable       Unallowable
   Size     Frame Value      Size           Sample        Payments          Payments
3,024,176   $257,266,589      100            $8,478          55              $4,544



                  ESTIMATES OF UNALLOWABLE PAYMENTS
                (Limits Calculated for a 90-Percent Confidence Interval)

                           Point estimate     $137,404,646
                           Lower limit         103,735,580
                           Upper limit         171,073,712
                                                         APPENDIX C: ERROR DETAILS


                                                            DMEPOS    Total                        Number of Errors                    Line Items
                       TYPES OF                             Required    In                                                              with Only
            MISSING DOCUMENTATION                             For    Sample          Total   CPAP          TS *        RAD     PRSS     One Error
Proof of Delivery                                              All     100                14     8                 2      2        2              4
Physician's Prescription/Order                                 All     100                40    25                 9      3        3            25
Use or Compliant Use Follow-up Documentation               CPAP, RAD    76                12     8                 0      4        0              7
Polysomnogram (Steep Study)                                CPAP, RAD    76                 0     0                 0      0        0              0
Physician's Certifying Statement                            TS, PRSS    24                 8     0                 6      0        2              2

 Total Errors (Duplicated Count)                                                           74        41           17       9       7              38




               CATEGORIES OF DME                             Dollars    Items    Items   Items   Dollars                1      2           3           Multiple
                                                             Tested     Tested Allowed † Errors in Error               Error Errors      Errors        Errors ‡
Continuous Positive Airway Pressure Systems                   $4,813.14      66       33     33 $2,401.06                  25     8                0           8
Therapeutic Shoes for Diabetics                                1,926.60      19        7     12 1,244.16                    7     5                0           5
Respiratory Assist Devices                                     1,021.40      10        4       6   419.75                   4     1                1           2
Pressure Reducing Support Surfaces (groups 1 and 2)              716.44       5        1       4   478.57                   2     1                1           2

 Totals                                                       $8,477.58       100          45        55 $4,543.54         38      15               2         17

* Therapeutic shoes are a one-time purchase.
† One of these forty-five sampled items was for a supplier who was no longer active and was considered a non-error.
‡ Seventeen of the fifty-five unallowable sampled items had multiple errors.

CPAP = continuous positive airway pressure systems
TS = therapeutic shoes for diabetics
RAD = respiratory assist devices
PRSS = pressure reducing support surfaces (groups 1 and 2)
                                     APPENDIX D: AUDITEE COMMENTS
	                                                                           Page 1 of 2
J~lIn Ru.sh
Jelln RU5h
President


May 11, 2010


                                                                                                                         CIGNAGovernment
                                                                                                                         Services
                                                                                                                          Two Vantage Way
Peter J. Barber
         Barberaa                                                                                                         Nashville, TN 37228
                                                                                                                          Telephone 615.252.3657
                                                                                                                          Tdephone
Regional [nInspecto
             spectorr Genera
                       Generall for Audit Services                                                                        Facsimile
                                                                                                                          Fa oimite 615.782.4695
                                                                                                                                      6\5.782.4695
Office of Audit Services, Region
                             Reg'ion IV                                                                                   Jean
                                                                                                                           ean.Rush®CIGNA
                                                                                                                               .Rush®CIGNA.com
                                                                                                                                             .eom
6 1 Forsyt
      rsythh Str
              tree
                 eet,
                   t, S.W., Ste. 3T41
                                 3T4 1
Atlanta, GA 30303


Dear Mr. Barbera,

On April 13, 2010, C IGNGNA  A GoGovernment
                                    vernment SeSerrvices (CGS) rece eceived
                                                                        ived Draft Report A-04-09-04039
entitled
en titled "Review o(     stiicti
                  of Jurisdic ti on C Medicare
                                      Metiicare Payments (o forr Selected Durable Claims With th e KX Mo(/ir
                                                                                                        Modifi er
(or Calenda
    Calendarr Year 2007." CGS ha    hass reviewed the report and acknowledges the unallowable
payments made re lated ated t o the KX modifi
                                           modifier
                                                  er w h e re th
                                                               thee su pp
                                                                       pplilier
                                                                             er did not have
                                                                                        h ave the requi
                                                                                                   equired
                                                                                                        red
claim docum e ntntaa tion
                     tion.. CGS will take th thee following
                                                  fo llowing actions in response to th   thee recommendatio
                                                                                               ecommendationns:

      • Upon receipt of a lilisting sti ng of unallowable payments from th               thee OIG, CGS will adjust the
        claa im
        cl   imss a nd beg   in recovery ef
                         begin                 efffo rt        thee $4,544
                                                     rtss for th    $4 ,544 in identified overpayments.
      • Review th   thee unall  owable samp
                         unallowable       sample  le it  ems t o determine if add
                                                        items                       additiitioo n al
                                                                                                  al ove
                                                                                                     overpa     ymentts ca
                                                                                                           rpaymen        cann be
        identifi
        identifieded and re cove       red.
                                covered.
                           a ppropriate CMS staff
      • Repo rt to the appropriate                      taff,, as well as th                  Supplilier
                                                                           thee Natitioo nal Supp       er C learinghou
                                                                                                               lea ringhouse se
        Medicare Admi ni      nisstra tiv
                                      tivee Con
                                             Contratracct o r (NSC-MAC) the supp   supplie liers
                                                                                               rs Id en tified
                                                                                                   iden  ti fied w h o violat
                                                                                                                          iolated
                                                                                                                                ed the
        su pplie
              plierr stan
                     sta nd
                          d a rds.
      • Devevellop a proposal to imp     imprrove the effec        tiveness of the KX modifier for submi
                                                            effectiveness                                        ub missssiion to CMS
        (Mr. Edward Lain, DME MAC Pr                   oject Off
                                                    Project     Offiicer) by Ju
                                                                             Junn e 30, 2010.
                                                                                          20 10. Addi        tional tar
                                                                                                     Additional       targeted
                                                                                                                         geted
        prov
        provid ider
                 er education on th       thee KX mod   odifier
                                                            ifie r will be a component of th        thee proposa
                                                                                                          proposal.l. ThThee
        proposal will also include a ve             ri fication
                                                verifi   cation process fo r supp
                                                                                supplilierer documentation o n a p re-pay
        basis.

 Supple mentin
 Suppleme      nting
                   g the
                     th e actions to be taken by CGS, we have partnered with our DME MAC peers to
 stren
 st reng
       gth
         thee n cont
                con trro ls su
                            surrounding
                               rrounding claims pa     payment
                                                          yment for subm
                                                                       submiiss
                                                                              ssiions ththaa t include ththee KX mod
                                                                                                                   modifier.
                                                                                                                         ifi er.
 The four DME MAC Medical Dire          Directo
                                              ctorrs rev
                                                      evised
                                                         ised the Loca
                                                                    Locall Cove
                                                                           Coverarage
                                                                                    ge Deci
                                                                                        Decissions (Le(LCDs)
                                                                                                           Ds) and
 documentation requi   eq uirreme nt     fo r 17 poliCies
                                    ntss for      policies fo
                                                            forr the use of th
                                                                             thee KX, GA, GZ and GY modifiers
 effective
 effec tive December 1I,,2009 2009.. PriPrior
                                           or to ththiis date, the add  ition,
                                                                    additi on , change or removaremovall of th these
                                                                                                                 ese
 modifie
 modif   ierrs was cons
                   consiid e red a cler
                                     clerical    rroo r reope
                                          ical e rr      eopenn in
                                                                ingg that could be reque
                                                                                       requested
                                                                                               sted v ia paper
                                                                                                         paper//fax
  ubmiss
 subm   issiion or over the phone.
                                ph one. Th Thee cove
                                                 coverrage a nd documentation cha       changes     effectt ive on
                                                                                             nges effec
 December 1, 2009 2009,, requir
                           req uiree that providers n ow file a redetermination request for c hang            hanges
                                                                                                                   es to these
 modi   fie rs. Also, cl
 modifiers.            claims
                          ai ms submitte
                                 submitted    d without th  these
                                                               ese modifiers are denied
                                                                                      den ied and mu    must st be
 resubmitted with th      thee required modifi
                                            modifiee rs. These poli  policy
                                                                          cy c hang
                                                                               hanges es in crease the e ffectiveness
                                                                                                              ffecti veness of
            modifiee r b y requiring that th
 the KX modifi                                   thee provider file an appeal t o add o r C         c hange the KX
 modiffier and provide the required docum
 modi                                            documee ntation
                                                             ntatio n t o suppo
                                                                           support rt th
                                                                                      thee u se ofo f the KX modifi
                                                                                                                 m odifieer.




                                                                                                                                              c_s/
An affiliate of Conn calCuI Gent,.1 Ule Insu,anct Company rart 8 I"< OMECont,act~ eaTne, 10' Iht Qmt" /0' Mt<lIea't I"< Medicaid StrvICM.
                                                                                                                                            -~-'--I
                                                                                           Page 2 of 2

May 11, 2010
Page 2



If you
   you have
       have any
            any questions
                questions or
                          or additional
                             additional requests
                                         requests related
                                                  related to
                                                          to the review, please
                                                             the review, please contact
                                                                                contact Elizabeth
                                                                                        Elizabeth
Noelting, Compliance
Noelting, Compliance Specialist
                     Specialist at
                                at 615-782-4541.
                                   615-782-4541.

Sincerely,
Sincerely,


II Jean
   Jean Rush
        Rush II


Jean Rush
Jean Rush
President
President
CIGNA Government
CIGNA   Government Services
                   Services
